CERTIFICATE AND AFFIDAVIT OF WORD COUNT

I hereby certify that there are 3,750 words in the Petition for a Writ of
Certiorari to be issued to the Supreme Court of Alabama in the matter of Thomas C.
Donald v. James P. Kimberley and Carol J. Kimberley, submitted for filing on the
date written below, according to the Microsoft Word word-processing system used to
prepare this document, in the body of the petition on pages numbered 1 through 17.
This document complies with the word limitations in Supreme Court Rule
33(l)(g).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this the 5th day of October, 2021.

Thomas C. Donald, pro'se
Post Office Box 43507
Birmingham, Alabama 35243
205-720-0263, tcd@bellsouth.net

